FEDERAL PRISON INDUSTRIES, INC.

  ANNUAL MANAGEMENT REPORT

      FISCAL YEAR 2010

         U.S. Department of Justice

       Office of the Inspector General

                Audit Division


            Audit Report 11-06

             December 2010

           FEDERAL PRISON INDUSTRIES, INC.

             ANNUAL MANAGEMENT REPORT

                  FISCAL YEAR 2010


              OFFICE OF THE INSPECTOR GENERAL

                 COMMENTARY AND SUMMARY


      This audit report contains the Annual Management Report of the
Federal Prison Industries, Inc. (FPI) for the fiscal years (FY) ended
September 30, 2010, and September 30, 2009. In accordance with the
Government Corporation Control Act, as amended (31 U.S.C. §9105), and
under the direction of the Office of the Inspector General (OIG), Cotton &
Company LLP performed the audit in accordance with U.S. generally
accepted government auditing standards. The audit resulted in an
unqualified opinion on the FY 2010 financial statements. An unqualified
opinion means that the financial statements present fairly, in all material
respects, the financial position and the results of the entity’s operations in
conformity with U.S. generally accepted accounting principles. The FY 2009
financial statement audit was performed by KPMG LLP and also resulted in
an unqualified opinion (OIG Report No. 10-08).

       Cotton & Company LLP also issued reports on internal control and on
compliance and other matters. For FY 2010, the Independent Auditors’
Report on Internal Control over Financial Reporting did not identify any
significant deficiencies. In the FY 2010 Independent Auditors’ Report on
Compliance and Other Matters, the auditors identified no instances of
non-compliance with applicable laws and regulations.

      The OIG reviewed Cotton & Company LLP’s reports and related
documentation and made necessary inquiries of its representatives. Our
review, as differentiated from an audit in accordance with U.S. generally
accepted government auditing standards, was not intended to enable us to
express, and we do not express, an opinion on the FPI’s financial
statements, conclusions about the effectiveness of internal control,
conclusions on whether the FPI’s financial management systems
substantially complied with the Federal Financial Management Improvement
Act of 1996, or conclusions on compliance with laws and regulations. Cotton
& Company LLP is responsible for the attached auditors’ reports dated
November 1, 2010, and the conclusions expressed in the reports. However,
our review disclosed no instances where Cotton & Company LLP did not
comply, in all material respects, with U.S. generally accepted government
auditing standards.
This page intentionally left blank.

             FEDERAL PRISON INDUSTRIES, INC.

               ANNUAL MANAGEMENT REPORT

                    FISCAL YEAR 2010

                               TABLE OF CONTENTS

                                                                                           PAGE

MANAGEMENT’S DISCUSSION AND ANALYSIS..........................................3


INDEPENDENT AUDITORS’ REPORTS


   REPORT ON FINANCIAL STATEMENTS ............................................... 15


   REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING ........... 17


   REPORT ON COMPLIANCE AND OTHER MATTERS................................ 21


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


   BALANCE SHEETS........................................................................... 25


   STATEMENTS OF OPERATIONS AND CUMULATIVE RESULTS OF

   OPERATIONS ................................................................................. 26


   STATEMENTS OF CASH FLOWS ........................................................ 27


   NOTES TO FINANCIAL STATEMENTS ................................................. 28

This page intentionally left blank.

U.S. DEPARTMENT OF JUSTICE


FEDERAL PRISON INDUSTRIES, INC.

          MANAGEMENT’S
       DISCUSSION & ANALYSIS
            (UNAUDITED)




                -1-
This page intentionally left blank.





                -2-
                             U.S. Department of Justice

                            Federal Prison Industries, Inc. 

                         Management’s Discussion and Analysis 

                                     (Unaudited)



Mission

It is the mission of Federal Prison Industries, Inc. (FPI) to employ and provide job skills training to
the greatest practicable number of inmates confined within the Federal Bureau of Prisons; contribute
to the safety and security of our Nation’s federal correctional facilities by keeping inmates
constructively occupied; provide market-quality products and services; operate in a self-sustaining
manner; and minimize FPI’s impact on private business and labor.

Organizational Structure of Federal Prison Industries, Inc.

FPI is a wholly-owned government corporation created by Congress in 1934. FPI is authorized to
operate industries in federal correctional institutions and disciplinary barracks (18 U.S.C. § 4121 to §
4129). The Director of the Federal Bureau of Prisons (BOP), who has jurisdiction over all federal
correctional institutions, is the Chief Executive Officer. General management of FPI is provided by
the Chief Operating Officer who also serves as an Assistant Director for the BOP.

In fiscal year 2010, FPI operated in seven business segments: Clothing and Textiles, Electronics,
Fleet Management and Vehicular Components, Industrial Products, Office Furniture, Recycling, and
Services. FPI has industrial and service operations at 94 factories located at 70 prison locations
representing approximately 9% of the work eligible inmate population as of September 30, 2010.
Factories are operated by FPI supervisors and managers, who train and oversee the work of inmates.
The factories utilize raw material and component parts purchased from the private sector to produce
finished goods. Orders for goods and services are obtained through marketing and sales efforts
managed by FPI staff. Some products and all services are provided on a non-mandatory, preferred
source basis.

FPI processes primarily all customer orders and invoicing through a centralized customer service and
accounts receivable center at the Lexington, Kentucky factory. Vendor payments are processed at a
centralized accounts payable center at the Butner, North Carolina facility. In addition, FPI performs
product development, testing and costing at its facility in Englewood, Colorado.

Financial Structure

FPI operates as a revolving fund and does not receive an annual appropriation. The majority of
revenues are derived from the sale of products and services to other federal departments, agencies,
and bureaus. Operating expenses such as the cost of raw materials and supplies, inmate wages, staff
salaries, and capital expenditures are applied against these revenues resulting in operating income or
loss, which is reapplied toward operating costs for future production. In this regard, FPI makes


                                                 -3-
capital investments in buildings and improvements, machinery, and equipment as necessary in the
conduct of its industrial operation.

While FPI does business with the majority of federal departments, agencies and bureaus, FPI’s
largest federal government customers include the Department of Defense (DOD), the Department of
Homeland Security (DHS), the Department of Justice (DOJ), the Social Security Administration
(SSA), and the General Services Administration (GSA).

Critical Accounting Policies

The following discussion and analysis of FPI’s financial condition, results of operations, liquidity
and capital resources are based upon FPI’s financial statements, which have been prepared in
accordance with U.S. generally accepted accounting principles based on accounting standards issued
by the Financial Accounting Standards Board (FASB), the private sector standards-setting body.
These generally accepted accounting principles require FPI management to make estimates and
judgments that affect the reported amount of assets, liabilities, revenues and expenses. In this regard,
FPI management evaluates the estimates on an on-going basis, including those related to product
returns, bad debt, inventories, long-lived assets, and contingencies and litigation. FPI bases its
estimates upon historical experience and various other assumptions that FPI believes are reasonable
under the circumstances. The actual results may differ from these estimates when assumptions or
conditions change.

FPI believes that some of its accounting policies involve complex or higher degrees of judgment than
its other accounting policies. The following accounting policies have been identified by FPI
management as being critical and therefore require more significant estimates or reliance on a higher
degree of judgment on the part of FPI management.

Revenue recognition: Revenue is generally recognized when 1) delivery has occurred or services
have been rendered, 2) persuasive evidence of an arrangement exists, 3) there is a fixed or
determinable price, and 4) collectability is reasonably assured. Revenue from contracts that specify a
customer acceptance criteria is not recognized until either customer acceptance is obtained or upon
completion of the contract. Sales returns are primarily replaced with like items and are recorded as
they occur.

Revenue is recognized on multiple element (numerous stages of product delivery, set up, and
installation) agreements as a single unit of accounting for manufactured items when the product has
been accepted by the customer. Revenue for services provided on behalf of FPI is recognized when
the service provider presents a valid invoice including a customer acceptance or completion notice.

Allowance for doubtful accounts receivable: The allowance for doubtful accounts is based upon
an analysis of several factors including payment trends, historical write off experience, credit quality
for non-governmental accounts, and specific analysis of collectability of an account. During the
course of time, these factors may change which will cause the allowance level to adjust accordingly.
As part of their analysis, customer accounts determined to be unlikely to be paid are recorded as a
charge to bad debt expense in the income statement and the allowance account is increased. When it


                                                 -4-
becomes certain that a customer account will not be paid, the receivable is written off by removing
the balance from accounts receivable.

As of September 30, 2010 and September 30, 2009, FPI had established an allowance for bad debt in
the amount of $.83 million and $.35 million on accounts receivable balances of $34.83 million and
$56.06 million, respectively.

Inventory Valuation: FPI maintains its inventory primarily for the manufacture of goods for sale to
its customers. FPI’s inventory is composed of three categories: Raw Materials, Work-in-Process,
and Finished Goods. These categories are generally defined by FPI as follows: Raw Materials
consist of materials that have been acquired and are available for the production cycle, Work-in-
Process is composed of materials that have moved into the production process and have some
measurable amount of labor and overhead added by FPI, Finished Goods are materials with FPI
added labor and overhead that have completed the production cycle and are awaiting sale to
customers.

Raw material inventory value is based upon moving average cost. Inventories are valued at the
lower of average cost or market value (LCM) and include materials, labor and manufacturing
overhead. Market value is calculated on the basis of the contractual or anticipated selling price, less
allowance for administrative expenses. FPI values its finished goods and sub-assembly items at a
standard cost that is periodically adjusted to approximate actual cost. FPI has established inventory
allowances to account for LCM adjustments and obsolete items that may not be utilized in future
periods.


Program Values

It is the mission of Federal Prison Industries, Inc. (FPI) to employ and provide job skills training to
the greatest practicable number of inmates confined within the Federal Bureau of Prisons; contribute
to the safety and security of our Nation’s federal correctional facilities by keeping inmates
constructively occupied; provide market-quality products and services; operate in a self-sustaining
manner; and minimize FPI’s impact on private business and labor.

The goal of FPI is to reduce undesirable inmate idleness by providing a full-time work program for
inmate populations (goal of approximately 25 percent of “work eligible” inmates). Many of the
inmates do not have marketable skills. FPI provides a program of constructive industrial work and
services wherein job skills can be developed and work habits acquired.

As with most governmental programs, the real value of the entity is not readily measured in dollars
and cents and is not always contained in the financial reports. FPI has existed as an effective
correctional program for 76 years. In the course of the years, FPI has positively impacted the lives of
countless inmates and staff members that reside and work in the Bureau of Prisons and the
surrounding local communities in which we live.

It is impossible to quantify the extent to which FPI’s success has prevented inmate unrest that would


                                                 -5-
have been costly in lives as well as dollars. In the face of an escalating inmate population and an
increasing percentage of inmates with histories of violence, FPI’s programs have helped ease tension
and avert volatile situations, thereby protecting lives and federal property. Prisons without
meaningful activities for inmates are dangerous prisons, and dangerous prisons are expensive
prisons. The work and education programs of FPI have played an essential role in protecting lives,
preserving stability and saving money in America’s federal prisons.

At the same time, FPI has met its other goal of offering opportunities for inmates who want to take
the personal responsibility for rehabilitating themselves. Most inmates eventually will be returned to
society; industrial and educational programs can help them to steer clear of criminal activity after
release. FPI plays a vital role in management of inmates, and also improves the likelihood that
inmates will remain crime-free upon their release from BOP custody. A comprehensive study
conducted by the BOP demonstrated that FPI provides inmates with an opportunity to develop work
ethics and skills, contributes substantially to lower recidivism and increases job-related success of
inmates upon release. This study indicates that inmates involved in FPI work programs and
educational programs are substantially less likely to return to prison. The impact on the lives of
people who live in the communities in which these inmates will return is immeasurable. Countless
lives are spared the devastating impact of continued criminal activity.

Since coming into existence in the 1930s, FPI has been a reliable defense supplier, especially in
times of surge demands. FPI has received a number of awards for its outstanding performance as a
supplier to the DOD.


Analysis of Financial Statements

Cash and Investments

Total Cash increased $36.9 million, $35.6 million of which was the result of an increase in cash
advances. FPI's cash advances are primarily for the purchase of inventory in support of the Fleet
Management and Vehicular Components vehicle retrofitting operation. The primary customer for
these operations is the Department of Homeland Security; advances fluctuate throughout the year as
they receive appropriations. Other major factors in the overall change in cash include a $56.3
million loss, a decrease in Accounts Receivable of $21.7 and decrease in Inventories of $60.9
million.

Accounts Receivable

The Accounts Receivable balance decreased $21.7 million during fiscal year 2010, primarily as a
result of a reduction in sales during the year and continued collection efforts. The Accounts
Receivable balance of $34 million as of September 30, 2010 represents only 52.5 percent of
September's total revenues. FPI collection efforts continued to improve during FY 2010. FPI was
successful in maintaining its days to collect through enhanced results in the areas of electronic funds
transfer and IPAC collections from the DOD. FPI's average days to collect for the year were



                                                 -6-
approximately 24 and 18 in the month of September. The Accounts Receivable balance over sixty
days old represented only 7 percent of the total balance as of September 30, 2010.

Inventory

Inventory decreased by $60.9 million during fiscal year 2010. FPI placed an increased emphasis on
inventory reduction during fiscal year 2010. While some business segments achieved reductions, the
Fleet Management and Vehicular Components business segment was the primary contributor to the
reduction with a decrease of $53.2 million between September 2010 and September 2009. This
decrease is attributable to the $58.2 million decrease in current backlog for the Fleet Management
business segment as of September 30, 2010, compared to September 30, 2009. Modest increases
resulted for Industrial Products and Office Furniture business segments, each of which had
significant increases in backlog as of September 30, 2010.

Other Assets

In fiscal year 2010, other assets decreased by $2.3 million. During fiscal year 2008, FPI established a
program to produce solar panels. Suppliers of solar panel raw materials require customers to
advance funds to purchase materials. As of September 30, 2010, FPI has $2.7 million of outstanding
advances for solar panel raw materials compared to $4.7 million as of September 30, 2009. The
remaining balance is expected to be fully liquidated during fiscal year 2011.

Liabilities

Total Liabilities increased by $1.6 million during fiscal year 2010. Decreases in Accounts Payable
were offset with increases in Deferred Revenue. Accounts Payable decreased $4.7 million during
fiscal year 2010. The decrease is reflective of FPI's continued efforts to reduce costs and inventory.
Deferred Revenue increased $6.9 million during fiscal year 2010. This 3.6 percent increase
represents a change in customer advances payable on hand primarily for the retrofitting of vehicles
for the DHS. The increase is insignificant considering the volume of the business segment which
recorded $205.2 million in sales during fiscal year 2010.

Revenue, Cost of Revenue and Net Loss

Total Revenue decreased by $129.2 million while total cost of revenue decreased by $96.3 million.
In fiscal year 2010, FPI incurred setbacks to its progress as a whole, including the loss of a major
contract with the DOD for the sale of helmets, a delay in obtaining contracts for the newly developed
solar panel product line and a significant decline in cable orders. The aforementioned factors
contributed to a $45.4 million loss for the Electronics business segment and a corporate net loss of
$56.3 million. The higher cost to revenue ratio is due primarily to write-offs for inventory in the
Electronics business segment. These write-offs involved a $17.8 million write-off of military
helmets and a write-down of solar cells and panels to market value in the amount of $17.3 million.
A majority of these solar cells will be sold through GSA in early fiscal year 2011. In fiscal year 2010,
five of seven business segments achieved increases in their earnings as a percentage of sales which
gives a positive reflection of cost containment and factory capacity reductions. The Industrial


                                                 -7-
Products and Recycling business segments achieved the most remarkable changes with 29.4 and 29.7
percent increases respectively.

Business Segments

In fiscal year 2010, FPI’s businesses were organized, managed and internally reported as seven
operating segments based on products and services. These segments are Clothing and Textiles;
Electronics; Fleet Management and Vehicular Components; Industrial Products; Office Furniture;
Recycling; and Services. FPI is not dependent on any single product as a primary revenue source;
however, it is dependent on the federal government market for the sale of its products. FPI’s net
industrial income (earnings) at the Business Segment level consist of sales offset by cost of goods
sold and under /over applied overhead. Fiscal Year 2009 net sales of $885,265 included $(4,090)
recorded to FPI’s Corporate Office. Fiscal Year 2010 net sales of $776,984 included $4,088
recorded to FPI’s Corporate Office. FPI’s net sales and earnings for the fiscal years ended
September 30, 2010 and 2009 for each of its current business segments is presented for comparative
purposes:




                                               -8-
Business Segment                                    Fiscal Year
Clothing and Textiles                    2010                       2009
Sales                                  $246,470                    $262,686
Earnings                                $35,885                     $36,165
Electronics
Sales                                   $99,107                    $161,525
Earnings                               ($45,360)                    $6,224
Fleet Management and Vehicular Components
Sales                                  $205,221                    $261,242
Earnings                                  $7,029                    $11,566
Industrial Products
Sales                                    $44,029                    $31,533
Earnings                                  $5,999                    ($4,969)
Office Furniture
Sales                                  $129,312                    $130,088
Earnings                                 $2,880                     ($2,994)
Recycling
Sales                                    $13,596                     $9,212
Earnings                                  $3,586                      ($308)
Services
Sales                                     $35,161                   $33,069
Earnings                                 ($4,385)                   ($8,070)
Corporate Total
Sales                                  $772,896                    $889,355
Earnings                                 $5,634                     $37,614


Liquidity and Capital Resources

Despite FPI's net loss of $56.3 million, total cash increased $36.9 million in fiscal year 2010. Much
of this increase can be attributed to cash advances from customers, however, the cash balance
(excluding advances) also increased in fiscal year 2010. The ending cash balance excluding
advances was $189.1 million in fiscal year 2010 compared with $187.8 million in fiscal year 2009.
In addition, FPI's cash still remains strong as a result of past DHS and DOD demand combined with
current cost containment and factory capacity reductions. Factory earnings (before loss on closures
and excess writeoff) are expected to increase to $24.5 million in fiscal year 2011 in comparison to



                                                -9-
$17.9 million decrease in fiscal year 2010. Additional reductions in costs and investments in
property, plant, and equipment were instituted in FPI's fiscal year 2011 operating plan.

Possible Future Effects of Existing Events and Conditions

In its fiscal year 2008 Management Discussion and Analysis, FPI reported a possible return to a
tentative fiscal position once demand for products in support of the war subsided. Demand for these
products gradually, but significantly declined over the course of fiscal year 2009. During fiscal year
2009, FPI faced many financial and operational challenges. While overall demand for FPI’s products
and services remained strong, profit margins were significantly lower than planned as the result of a
product mix that included fewer high profit margin items typically produced for the war effort. As
many of our competitors experienced a downturn in their business, competition for government
business increased, pushing prices and profit margins lower. Adverse legislation in recent years made
it significantly easier for private sector companies to increase its market share at FPI’s expense.
Increases in material prices and the cost of carrying excess production capacity and inventory also
impacted FPI’s profitability. The state of the economy yielded another unexpected turn as interest
rates severely declined, becoming nearly non-existent. Historically, FPI has earned significant
income from interest earned by investing its cash reserves.

FPI identified these trends early in fiscal year 2009 and instituted aggressive cost containment
measures to minimize the overall impact on its financial position. These measures included a
reduction in budgeted general and administrative expenses, actual overhead expenses and investment
in property, plant and equipment. In order to achieve these goals, it was necessary to close or
downsize 19 factories and reduce staff and inmate employment. Additionally, during fiscal year
2009, FPI placed an increased emphasis on marketing strategies. Additional reductions in costs and
investment were instituted in FPI’s fiscal year 2010 operating plan. FPI also supported additional
legislative authorities to sustain its mission and offset legislation that was impacting the program.

In fiscal year 2010, FPI incurred some setbacks in its progress as a whole, including the loss of a
major contract with the DOD for the sale of helmets, a delay in obtaining contracts for the newly
developed solar panel product line and a significant decline in cable orders, all of which contributed
to a $45.4 million loss for the Electronics business segment and a corporate net loss of $ 56.3
million.

However, these losses overshadowed some significant improvements in the remaining business
segments. FPI continued to successfully reduce factory overhead, general and administrative
expense and capital improvements. The financial impact of the fiscal year 2009 closures and
downsizing became evident by the second quarter of fiscal year 2010. As staffing decreased,
earnings for fiscal year 2010 improved drastically over that of fiscal year 2009. FPI’s year to date net
loss as of May 31, 2010 was $10.9 million compared to $18.8 million for the same period in fiscal
year 2009. During June and July collectively, FPI earned $1.3 million and in August lost $4 million,
primarily due to a once per annum excess and obsolete inventory write off of approximately $4
million. During fiscal year 2010, five of seven business segments increased their earnings compared
to fiscal year 2009 and a sixth business segment (Clothing and Textiles), despite a six percent decline
in sales, achieved a less than one percent decline in earnings. The Industrial Products business


                                                 -10-
segment achieved its first positive earnings since fiscal year 2004. Assuming the Electronics
business segment losses were factored out for fiscal years 2010 and 2009, the fiscal year 2010 net
loss would have been $11.0 million versus a $29.6 million net loss for fiscal year 2009.

Unfortunately, despite the noted successes in fiscal year 2010, unused factory capacity necessitated
the closure and downsizing of an additional 12 factories, (including three from the Electronics
business segment) and personnel reductions in another eight locations. It is anticipated that these
additional closures will net an additional annual savings of approximately $20 million once the new
staffing level is realized.

Despite the net loss in fiscal year 2010, FPI also made some strides in improving its cash position
through reductions in accounts receivable and capital expenditures. FPI has historically focused on
cost containment measures, which has allowed it to build sufficient cash reserves during prosperous
periods. FPI’s fiscal year 2011 Operating Plan continues its focus on cost reductions. FPI is
confident that by maintaining cost controls and continuing to undertake new marketing initiatives, it
will continue to meet its mission challenges of maintaining a ‘self-sufficient’ fiscal position and
providing adequate inmate employment levels and will ensure it has resources to sustain future
operations.




                                               -11-
This page intentionally left blank.





               -12-
U.S. DEPARTMENT OF JUSTICE


FEDERAL PRISON INDUSTRIES, INC.

    INDEPENDENT AUDITORS’ REPORTS




                 -13-
This page intentionally left blank.





               -14-
                              Independent Auditors’ Report on Financial Statements


Inspector General
United States Department of Justice


Harley G. Lappin, Chief Executive Officer
Board of Directors
Federal Prison Industries, Inc.
United States Department of Justice


We have audited the accompanying Balance Sheet of the Federal Prison Industries, Inc. (FPI), a component of the
United States Department of Justice (DOJ), as of September 30, 2010, and the related Statement of Operations and
Cumulative Results of Operations, and Statement of Cash Flows for the year then ended. These financial
statements are the responsibility of the FPI’s management. Our responsibility is to express an opinion on these
financial statements based on our audit. The financial statements of the FPI as of September 30, 2009, were
audited by other auditors whose report dated November 6, 2009, expressed an unqualified opinion on those
statements.

We conducted our audit in accordance with auditing standards generally accepted in the United States of America;
the standards applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended by OMB Memorandum M-09-33. Those standards and
OMB Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement. An audit includes consideration of internal control
over financial reporting as a basis for designing audit procedures that are appropriate in the circumstances, but not
for the purpose of expressing an opinion on the effectiveness of the FPI’s internal control over financial reporting.
Accordingly, we express no such opinion. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements. An audit also includes assessing the accounting principles
used, and significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audit provides a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the financial
position of the FPI, as of September 30, 2010, and the results of its operations and cash flows for the year then
ended, in conformity with accounting principles generally accepted in the United States of America.

The information in the Management’s Discussion and Analysis section is not a required part of the basic financial
statements, but is supplementary information required by U.S. generally accepted accounting principles, or by
OMB Circular No. A-136, Financial Reporting Requirements. We have applied certain limited procedures, which
consisted principally of inquiries of management regarding the methods of measurement and presentation of this
information. However, we did not audit this information and, accordingly, we express no opinion on it.




                                                        -15-
In accordance with Government Auditing Standards, we have also issued our reports dated November 1, 2010, on
our consideration of the FPI’s internal control over financial reporting and on our tests of its compliance with
certain provisions of applicable laws and regulations. The purpose of those reports is to describe the scope of our
testing of internal control over financial reporting and compliance and the results of that testing, and not to
provide an opinion on the internal control over financial reporting or on compliance. Those reports are an integral
part of an audit performed in accordance with Government Auditing Standards and should be read in conjunction
with this report in assessing the results of our audit.


COTTON & COMPANY LLP




Alan Rosenthal, CPA, CFE
Partner

November 1, 2010
Alexandria, Virginia




                                                      -16-
                    Independent Auditors’ Report on Internal Control over Financial Reporting


Inspector General
United States Department of Justice


Harley G. Lappin, Chief Executive Officer
Board of Directors
Federal Prison Industries, Inc.
United States Department of Justice


We have audited the Balance Sheet of the Federal Prison Industries, Inc. (FPI), a component of the United States
Department of Justice (DOJ), as of September 30, 2010, and the related Statement of Operations and Cumulative
Results of Operations, and Statement of Cash Flows for the year then ended, and have issued our report thereon
dated November 1, 2010. We conducted our audit in accordance with auditing standards generally accepted in
the United States of America; standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No.
07-04, Audit Requirements for Federal Financial Statements, as amended by OMB Memorandum M-09-33. Those
standards and OMB Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance
about whether the financial statements are free of material misstatement.

In planning and performing our audit, we considered the FPI’s internal control over financial reporting as a basis
for designing our auditing procedures for the purpose of expressing our opinion on the financial statements, but
not for the purpose of expressing an opinion on the effectiveness of the FPI’s internal control over financial
reporting. Accordingly, we do not express an opinion on the effectiveness of the FPI’s internal control over
financial reporting or on management’s assertion on internal control included in Management’s Discussion and
Analysis. We limited our internal control testing to only those controls necessary to achieve the objectives
described in Government Auditing Standards and OMB Bulletin No. 07-04. We did not test all internal controls
relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982, such
as controls relevant to ensuring efficient operations.

A deficiency in internal control exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect and correct
misstatements on a timely basis. A material weakness is a deficiency, or combination of deficiencies, in internal
control, such that there is a reasonable possibility that a material misstatement of the entity’s financial statements
will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the second
paragraph and was not designed to identify all deficiencies in internal control over financial reporting that might
be deficiencies, significant deficiencies, or material weaknesses. In our fiscal year 2010 audit, we did not identify
any deficiencies in internal control over financial reporting that we consider to be material weaknesses, as defined
above.




                                                       -17-
We provide the current status of open recommendations from prior years in the following exhibit.

This report is intended solely for the information and use of the FPI management, DOJ Office of the Inspector
General, DOJ Justice Management Division, OMB, the U.S. Government Accountability Office, and the U.S.
Congress; it is not intended to be and should not be used by anyone other than these specified parties.


COTTON & COMPANY LLP




Alan Rosenthal, CPA, CFE
Partner

November 1, 2010
Alexandria, Virginia




                                                      -18-
                         STATUS OF PRIOR YEARS’ FINDINGS AND RECOMMENDATIONS


As required by Government Auditing Standards issued by the Comptroller General of the United States, and by
OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, we have reviewed the status of
prior years’ findings and recommendations. The following table provides our assessment of the progress the FPI
has made in correcting the significant deficiencies identified during these audits. We also provide the Office of the
Inspector General report number where the deficiency remains open, the fiscal year it was identified, the
recommendation for improvement, and the status of the recommendation as of the end of fiscal year 2010:

                   Significant
   Report                                                Recommendation                               Status
                    Deficiency
 Annual        Improvements are        Recommendation No. 1: Emphasize the importance               Completed
 Financial     needed in Inventory     of adhering to the proper segregation of duties
 Statement     Controls.               regarding inventory count duties for both the cycle
 Fiscal Year                           counts and the work in process inventory counts,
 2009                                  the necessity to perform these inventory counts
 Report No.                            properly, the requirement for proper review and
 10-07                                 authorization of adjusting entries resulting from the
                                       inventory counts, and the need to maintain
                                       complete files documenting the performance and
                                       results of inventory counts.

                                       Recommendation No. 2: Consider reviewing and                 Completed
                                       testing the adequacy of the performance of
                                       inventory counts. FPI management may consider
                                       utilizing the Program Review Division or utilizing
                                       headquarters management and staff to observe and
                                       document the performance of inventory counts in
                                       order to identify performance matters for improving
                                       the inventory count processes.




                                                       -19-
This page intentionally left blank.





               -20-
                         Independent Auditors’ Report on Compliance and Other Matters


Inspector General
United States Department of Justice


Harley G. Lappin, Chief Executive Officer
Board of Directors
Federal Prison Industries, Inc.
United States Department of Justice


We have audited the Balance Sheet of the Federal Prison Industries, Inc. (FPI), a component of the United States
Department of Justice (DOJ), as of September 30, 2010, the related Statement of Operations and Cumulative
Results of Operations, and the Statement of Cash Flows for the year then ended, and have issued our report
thereon dated November 1, 2010. We conducted our audit in accordance with auditing standards generally
accepted in the United States of America; standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States; and Office of Management and Budget
(OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended by OMB
Memorandum M-09-33.

The FPI’s management is responsible for complying with laws, regulations, and contract agreements applicable to
the FPI. As part of obtaining reasonable assurance about whether the FPI’s financial statements are free of
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations, and
contract agreements, noncompliance with which could have a direct and material effect on the determination of
the financial statement amounts, and certain provisions of other laws and regulations specified in OMB Bulletin
No. 07-04, including the provisions referred to in Section 803(a) of the Federal Financial Management
Improvement Act of 1996 (FFMIA). However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion. The results of our tests of compliance
described in the preceding paragraph of this report, exclusive of those referred to in FFMIA, disclosed no instances
of noncompliance or other matters that are required to be reported under Government Auditing Standards and
OMB Bulletin No. 07-04.

Under FFMIA, we are required to report whether the FPI’s financial management systems substantially comply
with federal financial management systems requirements; applicable federal accounting standards; and
application of the United States Standard General Ledger at the transaction level based upon U.S. generally
accepted accounting principles issued by the Financial Accounting Standards Board, as applicable to the FPI in
accordance with the provisions of the Government Corporation Control Act of 1945 (31 U.S.C. §9101 to 9110) and
Statement of Federal Financial Accounting Standards No. 34, The Hierarchy of Generally Accepted Accounting
Principles, Including the Application of Standards Issued by the Financial Accounting Standards Board. To meet this
requirement, we performed tests of compliance with FFMIA section 803(a) requirements.

The results of our tests of FFMIA disclosed no instances in which the FPI’s financial management systems did not
substantially comply with the requirements described in the preceding paragraph.




                                                      -21-
This report is intended solely for the information and use of the FPI’s management, DOJ Office of the Inspector
General, DOJ Justice Management Division, OMB, the U.S. Government Accountability Office, and the U.S.
Congress; it is not intended to be and should not be used by anyone other than these specified parties.


COTTON & COMPANY LLP




Alan Rosenthal, CPA, CFE
Partner

November 1, 2010
Alexandria, Virginia




                                                      -22-
U.S. DEPARTMENT OF JUSTICE


FEDERAL PRISON INDUSTRIES, INC.

    PRINCIPAL FINANCIAL STATEMENTS

          AND RELATED NOTES





                  -23-
This page intentionally left blank.





               -24-
                                                                  Federal Prison Industries, Inc.
                                                                                                        Balance Sheets

As of September 30,
(DOLLARS IN THOUSANDS)                                                                 2010                       2009

Assets

Current:
  Cash and cash equivalents                                                    $      322,448             $      285,559
  Accounts receivable, net                                                             34,006                     55,712
  Inventories, net                                                                    203,331                    264,232
  Other assets                                                                          3,691                      5,962
         Total current assets                                                         563,476                    611,465

Property, plant and equipment, net                                                    116,896                    123,684
         Total Assets                                                          $      680,372             $      735,149

Liabilities and United States Government Equity

Current:
  Accounts payable                                                             $       43,359             $       48,103
  Deferred revenue                                                                    198,217                    191,314
  Accrued salaries and wages                                                           11,244                     11,484
  Accrued annual leave                                                                  9,911                     10,363
  Other accrued expenses                                                                9,950                     11,780
         Total current liabilities                                                    272,681                    273,044
FECA actuarial liability                                                               15,857                      13,943
         Total Liabilities                                                            288,538                    286,987
United States Government Equity
  Initial capital                                                                       4,176                      4,176
  Cumulative results of operations                                                    387,658                    443,986

  Total United States Government Equity                                               391,834                    448,162
         Total Liabilities and United States Government Equity                 $      680,372             $      735,149

                                                   The accompanying notes are an integral part of these financial statements.




                                                     -25-
                                                       Federal Prison Industries, Inc.
                              Statements of Operations and Cumulative Results of Operations

For the fiscal years ended September 30,
(DOLLARS IN THOUSANDS)                                                   2010                         2009

Revenue:

 Net sales                                                       $      776,984              $       885,265

 Other revenue                                                            77,025                       97,962

 Total revenue                                                          854,009                      983,227

Cost of revenue:

 Cost of sales                                                          763,327                      833,083

 Cost of other revenue                                                    75,267                     101,829

 Total Cost of Revenue                                                  838,594                      934,912

Gross profit                                                              15,415                       48,315

Operating expenses:

 Sales and marketing                                                       5,907                         6,364

 General and administrative                                             106,535                      120,241


 Total operating expenses                                               112,442                      126,605


Loss from operations                                                     (97,027)                     (78,290)

Interest income                                                               259                          423

Interest expense                                                                (4)                        (17)

Other income, net                                                         40,444                       42,015


Net loss                                                                 (56,328)                     (35,869)

Cumulative results of operations, beginning of fiscal year              443,986                      479,855


Cumulative results of operations, end of fiscal year             $      387,658              $       443,986


                                       The accompanying notes are an integral part of these financial statements.




                                                -26-
                                                              Federal Prison Industries, Inc.
                                                                                   Statements of Cash Flows

For the fiscal years ended September 30,
(DOLLARS IN THOUSANDS)                                                          2010                        2009

CASH FLOWS FROM OPERATING ACTIVITIES

Net income (loss)                                                       $       (56,328)             $       (35,869)
Adjustments to reconcile net income to net cash
   provided by operating activities:

      Depreciation and amortization                                              11,120                       10,739
      Loss on disposal of property, plant and equipment                           4,079                        7,970
      Changes in:
       Accounts receivable                                                       21,706                      (10,843)
       Inventories                                                               60,901                      (14,116)
       Other assets                                                               2,271                        2,625
       Accounts payable and accrued expenses                                     (5,352)                     (19,299)
       Deferred revenue                                                           6,903                      (17,597)

Net cash provided by (used in) operating activities                              45,300                      (76,390)


CASH FLOWS FROM INVESTING ACTIVITIES

  Purchases of property, plant and equipment                                      (8,416)                     (8,972)
  Construction-in-progress of plant facilities                                         5                      (1,770)

Net cash used in investing activities                                             (8,411)                    (10,742)


Net increase (decrease) in cash and cash equivalents                            36,889                      (87,132)
Cash and cash equivalents, beginning of fiscal year                            285,559                      372,691
Cash and cash equivalents, end of fiscal year                           $      322,448               $      285,559




                                              The accompanying notes are an integral part of these financial statements.




                                                  -27-
                                    Fiscal Years 2010 and 2009

                                   Notes to Financial Statements

                                  (DOLLARS IN THOUSANDS)


Note 1. Organization and Mission

Federal Prison Industries, Inc. (FPI) was established in 1934 by an act of the United States Congress.
FPI operates under the trade name UNICOR, as a wholly-owned federal government corporation
within the Department of Justice, and functions under the direction and control of a Board of
Directors, (the “Board”). Members of the Board are appointed by the President of the United States
of America and represent retailers and consumers, agriculture, industry, labor, the Attorney General,
and the Secretary of Defense. FPI’s statutory mandate is to provide employment and training for
inmates in the Federal Prison System while remaining self-sufficient through the sale of its products
and services.

FPI’s federal government customers include departments (percent of Revenue shown in parenthesis),
agencies and bureaus such as the Department of Defense (46%), the Department of Homeland
Security (23%), the Department of Justice (10%), the Social Security Administration (4%), and the
General Services Administration (4%). These and other federal organizations are generally required
to purchase products from FPI, if its products meet the customer’s price, quality, and delivery
standards, under a mandatory source preference specified in FPI’s enabling statute and the Federal
Acquisition Regulation.

FPI has industrial and service operations at 94 and 98 factories located at 70 and 71 prison facilities
that employed 15,907 and 18,972 inmates representing approximately 9% and 16% of the work
eligible inmate population as of September 30, 2010 and September 30, 2009, respectively.


Note 2. Summary of Significant Accounting Policies

Basis of Accounting

FPI transactions are recorded on the accrual basis of accounting. Under the accrual basis, revenues
are recorded when earned and expenses are recorded when incurred, regardless of when the cash is
exchanged.

Basis of Presentation

FPI has historically prepared its external financial statements in conformity with U.S. generally
accepted accounting principles based on accounting standards issued by the Financial Accounting
Standards Board (FASB), the private sector standards-setting body. The Federal Accounting
Standards Advisory Board (FASAB) has been designated as the standards-setting body for federal
financial reporting entities with respect to the establishment of US GAAP. FASAB allows certain
government agencies to utilize FASB standards for Financial Statement presentations.




                                                -28-
                                    Fiscal Years 2010 and 2009

                                   Notes to Financial Statements

                                  (DOLLARS IN THOUSANDS)


Use of Estimates

The preparation of financial statements in conformity with US GAAP requires management to make
estimates and assumptions that affect the reported amounts of assets and liabilities and disclosure of
contingent assets and contingent liabilities at the date of the financial statements and reported
amounts of revenues and expenses during the reporting period. Actual results may differ from those
estimates.

Cash and Cash Equivalents

FPI considers all highly liquid investments purchased with an original maturity of three months or
less to be cash equivalents. FPI limits its investment activities and cash equivalents to short-term
overnight repurchase agreements with the Bureau of Public Debt of the United States Treasury. The
market value of these overnight repurchase agreements is equivalent to cost.

Accounts Receivable / Concentration of Credit Risk

Financial instruments that potentially subject FPI to concentrations of credit risk consist primarily of
accounts receivable. FPI sells products and services to various federal government departments,
agencies and bureaus, as well as certain private sector companies, without requiring collateral.
Accounts receivable consists of amounts due from those entities and is stated net of an allowance for
doubtful accounts.

FPI routinely assesses the payment histories of its federal customers and the financial strength of its
private sector customers and maintains allowances for anticipated losses as they become evident. In
this regard, an insignificant amount of accounts receivable remained past due at September 30, 2010
and September 30, 2009. A majority of these past due items relate to billings to various entities
within Department of Defense (DOD) who rely on the Defense Finance and Accounting Service
(DFAS) to process vendor payments. Historically, customer payments processed through DFAS
have generally taken longer to receive than payments from other federal and private sector
customers. FPI believes that ultimately, a majority of its past-due accounts receivable are fully
collectable. The amount due FPI, net of allowances, from DOD for the fiscal years ended September
30, 2010 and 2009 was $19,067 and $38,037 respectively.

While federal accounts receivable are normally fully collectible in accordance with federal law, FPI
has established an allowance for future losses against its federal accounts receivable to account for
potential billing errors related to pricing and customer discounts, as well as instances of expired or
cancelled funding from its federally appropriated customers. At September 30, 2010 and 2009, FPI’s
allowance for doubtful accounts is stated at approximately $825 and $345, respectively, of which
approximately $224 and $285, respectively, represents the amounts allocated against federal
accounts receivable.




                                                 -29-
                                    Fiscal Years 2010 and 2009

                                   Notes to Financial Statements

                                  (DOLLARS IN THOUSANDS)


Inventories

FPI maintains its inventory primarily for the manufacture of goods for sale to its customers. FPI’s
inventory is composed of three categories: Raw Materials, Work-in-Process, and Finished Goods.
These categories are generally defined by FPI as follows: Raw Materials consist of materials that
have been acquired and are available for the production cycle, Work-in-Process is composed of
materials that have moved into the production process and have some measurable amount of labor
and overhead added by FPI, Finished Goods are materials with FPI added labor and overhead that
have completed the production cycle and are awaiting sale to customers.

Raw material inventory value is based upon moving average cost. Inventories are valued at the lower
of average cost or market value (LCM) and include materials, labor and manufacturing overhead.
Market value is calculated on the basis of the contractual or anticipated selling price, less allowance
for administrative expenses. FPI values its finished goods and sub-assembly items at a standard cost
that is periodically adjusted to approximate actual cost. FPI has established inventory allowances to
account for LCM adjustments and obsolete items that may not be utilized in future periods.

Advances to Vendors

FPI generally does not offer advances to the public, however, where warranted, FPI will on occasion
make an advance to a vendor upon their request. Historically, these advances have been insignificant
and made primarily to the Industries for the Blind. During 2008, FPI established a program to
produce solar panels in anticipation of an expanding federal market as a result of Executive Order
13423 “Strengthening Federal Environmental, Energy, and Transportation Management,” which
requires federal agencies to improve energy efficiencies by the year 2015. Customarily, suppliers of
the raw materials to produce solar panels require advances to procure their own materials. Prior to
issuing any advances to a vendor, the Centralized Accounts Receivable section performs a review as
though they were a public customer, to include performing a due diligence review to assess risk and
a review of applicant financial statements. A letter of credit is obtained as needed based on the
results of this review. The FPI Controller approves advances prior to their disbursement. Advances
are reduced by offset to the vendor invoice as goods are delivered.

Revenue Recognition

FPI sells a wide range of products and services to a diversified base of customers, primarily
governmental departments, agencies and bureaus. Revenue is generally recognized when delivery
has occurred or services have been rendered, persuasive evidence of an arrangement exists, there is a
fixed or determinable price, and collectability is reasonably assured. Revenue from contracts that
require customer acceptance are not recognized until either customer acceptance is obtained, or upon
completion of the contract. Sales returns are primarily replaced with like items and are recorded as
they occur.

Revenue is recognized on multiple element agreements as a single unit of accounting for
manufactured items when the product has been accepted by the customer. Revenue for services
                                                -30-
                                    Fiscal Years 2010 and 2009
                                   Notes to Financial Statements
                                  (DOLLARS IN THOUSANDS)

provided on behalf of FPI is recognized when the service provider presents a valid invoice including
a customer acceptance or completion notice.

FPI records as other revenue the shipping and handling costs that have been billed to our customers,
installation costs for FPI products, and items procured for its customers as part of procurement
services provided by the Interagency Solutions and Procurement Branch. The cost of providing this
service is recorded as a cost of other revenue.

Deferred revenue is comprised of customer cash advances, which have been paid to FPI prior to the
manufacturing of goods, delivery of goods, or performance of services.

Other income is comprised primarily of imputed financing for retirement, health benefits and life
insurance (Note 8).


Property, Plant and Equipment

Property, plant and equipment are stated at cost, net of accumulated depreciation. Depreciation is
computed using the straight-line method over the following estimated useful lives:

                                        Years
Machinery & Equipment                   5 - 25
Computer Hardware                       5 - 10
Computer Software                       3-5
Building & Improvements                 24- 40

Upon retirement or disposition of property and equipment, the related gain or loss is reflected in the
statements of operations. Repairs and maintenance costs are expensed as incurred.

Taxes

As a wholly-owned corporation of the federal government, FPI is exempt from federal and state
income taxes, gross receipts tax, and property taxes.

Reclassifications

Certain fiscal year 2009 financial statement line items have been reclassified to conform with the
current year presentation.




                                                 -31-
                                   Fiscal Years 2010 and 2009
                                  Notes to Financial Statements
                                 (DOLLARS IN THOUSANDS)

Note 3. Accounts Receivable, Net

Accounts receivable, net consists of the following:

As of September 30,                                             2010                  2009

Intragovernmental billed receivables                          $ 25,443             $ 47,083
Private sector billed receivables                                9,388                8,974
                                                                34,831               56,057
       Less allowance for doubtful accounts                        825                  345

Accounts receivable, net                                      $ 34,006             $ 55,712

FPI incurred bad debt expense of $546 and $(530), respectively, for the fiscal years ended September
30, 2010 and 2009.

FPI incurred minimal direct accounts receivable write-offs during fiscal year 2009. The net
downward adjustment of $645 to allowance for doubtful accounts during fiscal year 2009 resulted in
negative bad debt expense. FPI’s accounting policy regarding the recording of allowance for doubtful
accounts is discussed in note 2 – Accounts Receivable / Concentration of Credit Risk.

Note 4. Inventories, Net

Inventories, net consist of the following:

As of September 30,                                           2010                    2009
Raw materials                                             $ 103,411                $ 75,114
Raw materials – vehicles                                     50,298                  91,890
Work-in-process                                              31,312                  41,916
Finished sub-assemblies                                       8,576                   8,577
Finished goods                                               36,399                  38,050
Finished goods – acceptance contracts                        22,074                  20,899
                                                            252,070                 276,446
Less inventory allowance                                     48,739                  12,214

Inventories, net                                          $ 203,331               $ 264,232



$50,298 of FPI’s fiscal year 2010 and $91,890 of FPI’s fiscal year 2009, raw materials balance
represents vehicles and component parts for use in the Fleet Management and Vehicular Components
business group’s retrofit product line. A majority of that inventory balance has been contracted on
behalf of the Customs and Border Protection and Bureau of Immigration and Customs Enforcement
of the Department of Homeland Security (DHS) for retrofit services that are performed by FPI. As
                                               -32-
                                     Fiscal Years 2010 and 2009
                                    Notes to Financial Statements
                                   (DOLLARS IN THOUSANDS)

part of an interagency agreement, DHS provides advance funding to FPI to procure these vehicles.
Revenue is recognized by FPI at the time of shipment of retrofitted vehicles to DHS.

$22,074 of FPI’s fiscal year 2010 and $20,899 of its fiscal year 2009 finished goods balance
represents goods shipped to customers or their agents for unrecognized revenue due to acceptance
criteria within the customer contract. The balances as of September 30, 2010 and September 30,
2009 are primarily systems furniture installations and destination acceptance contracts shipped after
the cutoff date for revenue recognition.

Included in total inventories as of September 30, 2010 and September 30, 2009, is $42,393 and
$22,752 in raw materials, work-in-process and finished goods in support of the newly activated solar
panels product line respectively. Additionally, FPI has entered into firm purchase commitments for
solar panel materials totaling $25,485 to be delivered in fiscal year 2011 and $23,671 to be delivered
in fiscal year 2014.


Note 5. Property, Plant and Equipment, Net

Property, plant and equipment, net consist of the following:

As of September 30,                                               2010                     2009

Buildings and improvements                                     $ 179,656              $ 181,290
Machinery and equipment                                          109,453                105,401
Computer hardware                                                  1,970                  1,872
Computer software                                                  6,484                  6,304
                                                                 297,563                294,867
Less accumulated depreciation                                    180,667                173,001
                                                                 116,896                121,866
Factory construction-in-progress                                       -                  1,818

Property, plant and equipment, net                             $ 116,896              $ 123,684


Depreciation and amortization expense totaled $11,120 and $10,739 for the fiscal years ended
September 30, 2010 and 2009, respectively. During fiscal year 2010, FPI invested $8,417 for the
purchase and construction of property, plant and equipment. During fiscal years 2010 and 2009, FPI
deactivated factories in an effort to reduce excess factory capacity. As a result of these deactivations,
FPI incurred losses on property plant and equipment of $4,039 in fiscal year 2010 and $7,746 in
fiscal year 2009.




                                                 -33-
                                    Fiscal Years 2010 and 2009
                                   Notes to Financial Statements
                                  (DOLLARS IN THOUSANDS)

Note 6. Other Accrued Expenses

Other accrued expenses consist of the following:

As of September 30,                                          2010                     2009

Materials in transit                                     $ 1,607                 $    1,580
Relocation travel expense                                  1,107                      2,191
FECA liabilities – current portion                         1,656                      1,643
Financial audit expense                                      461                        549
Telecommunication expense                                    934                      1,174
Utilities                                                  1,204                      1,401
Warranty expense                                             451                        478
Other expense                                              2,530                      2,764

Other accrued expenses                                    $ 9,950                 $ 11,780


Included in other expense as of September 30, 2010 and September 30, 2009 are accruals for Intra-
Departmental agreements of $501 and $73 and accruals for vendor invoices of $1,292 and $1,486,
respectively.


Note 7. Business Segments

FPI’s businesses are organized, managed and internally reported as seven operating segments based
on products and services. These segments are Clothing and Textiles; Electronics; Fleet Management
and Vehicular Components; Industrial Products; Office Furniture; Recycling; and Services. These
segments represent virtually all of FPI’s product lines. FPI is not dependent on any single product as
a primary revenue source; however, it is dependent on the federal government market for the sale of
its products and services. Fiscal year 2009 net sales of $885,265 included $(4,090) recorded to FPI’s
Corporate Office. Fiscal year 2010 net sales of $776,984 included $4,088 recorded to FPI’s
Corporate Office. FPI’s net sales for the fiscal years ended September 30, 2010 and 2009 for each of
its business segments is presented for comparative purposes:




                                                -34-
                                    Fiscal Years 2010 and 2009
                                   Notes to Financial Statements
                                  (DOLLARS IN THOUSANDS)

Net Sales
For the years ended September 30,                               2010                   2009

Business Segment

Clothing and Textiles                                        $ 246,470               $ 262,686
Electronics                                                     99,107                 161,525
Fleet Management and Vehicular Components                      205,221                 261,242
Industrial Products                                             44,029                  31,533
Office Furniture                                               129,312                 130,088
Recycling                                                       13,596                   9,212
Services                                                        35,161                  33,069


Net sales                                                    $ 772,896               $ 889,355


Regulatory Compliance

FPI’s ability to add or to expand production of a specified product is regulated by the Federal Prison
Industries Reform Act (“the Act”). The Act provides specific guidelines to FPI regarding its
methodology for evaluating and reporting new or expanded products, including requiring FPI to
provide direct notice to trade associations and interested parties of such actions. Finally, publication
of annual decisions of the FPI Board of Directors and semi-annual sales disclosures are mandated
under the Act.


Note 8. Intra-Department of Justice (DOJ) / Intragovernmental Financial Activities

FPI’s financial activities interact with and are dependent upon those of DOJ and the federal
government as a whole. The following is a discussion of certain intra-DOJ and intragovernmental
activities and their relationship with FPI:

Relationship with the Federal Bureau of Prisons

FPI and the Federal Bureau of Prisons (BOP) have a unique relationship in that the nature of their
respective missions requires the sharing of facilities and responsibilities relative to the custody,
training and employment of federal inmates. The Director of the BOP serves as the Chief Executive
Officer of FPI and the Chief Operating Officer of FPI serves as an Assistant Director of the BOP.
The BOP provides land to FPI for the construction of its manufacturing facilities and both FPI and
BOP share certain facilities, generally at no cost to FPI. In accordance with Managerial Cost
Accounting Concepts a reasonable estimate of these costs as provided by the BOP is included in
general expense and other income of FPI for the fiscal years ended September 30, 2010 and 2009,
respectively.
                                                 -35-
                                    Fiscal Years 2010 and 2009

                                   Notes to Financial Statements

                                  (DOLLARS IN THOUSANDS)


Self Insurance

In accordance with federal government policy, FPI is uninsured with respect to property damage,
product liability, and other customary business loss exposures. Losses incurred are absorbed as a
current operating expense of FPI or, if they are induced by factors related to FPI’s relationship with
the Federal Prison System, may be reimbursed by BOP. Certain other costs, principally relating to
personal injury claims, are paid directly by the federal government.

Federal Employees Compensation Act

The Federal Employees Compensation Act (FECA) provides income and medical cost protection to
cover federal civilian employees injured on the job, employees who have incurred a work-related
occupational disease, and beneficiaries of employees whose death is attributable to a job related
injury or occupational disease. The United States Department of Labor (DOL), which administers
FECA, annually charges each federal agency and department for its applicable portion of claims and
benefits paid in the preceding year. As of September 30, 2010 and September 30, 2009, the accrued
FECA liabilities as charged to FPI, approximated $1,656 and $1,643, respectively.

DOL also calculates the liability of the federal government for future claims and benefits, which
includes the estimated liability of death, disability, medical, and other approved costs. Future claims
and benefits are determined from an actuarial extrapolation, utilizing historical benefit payment
patterns and calculations of projected future benefit payments discounted to current value over a 23.5
year period. FPI’s estimated future liability approximated $15,857 and $13,943 at September 30,
2010 and 2009, respectively.

Retirement

Substantially all of FPI’s civilian employees are covered under either the Civil Service Retirement
System (CSRS) or the Federal Employees Retirement System (FERS). For employees covered under
CSRS (those employees hired prior to January 1, 1984), FPI contributed approximately 30.1 percent
(for normal retirement) or 51.1 percent (for hazardous duty retirement) of each employee’s salary.
CSRS covered employees do not have Federal Insurance Contributions Act (FICA) withholdings
and, thus, are not fully eligible to receive Social Security benefits. For employees covered by the
FERS, (generally those employees hired on or after January 1, 1984), FPI contributed (for normal
retirement) 13.8 percent for fiscal year ended September 30, 2010 and 11.2 percent for the fiscal year
ended September 30, 2009. FPI contributed (for hazardous retirement) 29.8 percent for fiscal years
ended September 30, 2010 and 24.9 percent for the fiscal year ended September 30, 2009.

Under FERS, employees also receive retirement benefits from Social Security and, if applicable,
benefits from a defined contribution plan (thrift). Under the thrift plan, an employee may contribute
(tax deferred) to an investment fund, up to $16,500 of salary for the fiscal years ended September 30,
2010 and September 30, 2009. FPI then matches this amount up to 4 percent, in addition to an
automatic 1 percent that is contributed for all FERS employees. Those employees, which elected to
remain under CSRS after January 1, 1984, continue to receive benefits in place, and may also
                                                -36-
                                     Fiscal Years 2010 and 2009
                                    Notes to Financial Statements
                                   (DOLLARS IN THOUSANDS)

contribute (tax deferred) up to 10 percent of their salary to the thrift plan, but with no matching
amount contributed by FPI.

CSRS and FERS are multi-employer plans. Although FPI funds a portion of pension benefits
relating to its employees, and provides for the necessary payroll withholdings, it does not maintain or
report information with respect to the assets of the plans, nor does it report actuarial data with respect
to accumulated plan benefits or the pension liability relative to its employees. The reporting of such
amounts is the responsibility of the United States Office of Personnel Management (OPM).

FPI’s contribution to both plans approximated $31,465 and $32,325 for the fiscal years ended
September 30, 2010 and 2009, respectively.

FPI must recognize its share of the cost of providing pension benefits to eligible employees utilizing
cost factors determined by the OPM. Included in general and administrative expense is
approximately $2,209 and $1,043 in the fiscal years ended September 30, 2010 and 2009,
respectively, with an offsetting credit to other income on the Statements of Operations and
Cumulative Results of Operations.

Health Benefits and Life Insurance

FPI, through the OPM, offers health and life insurance plans under which premium costs for health
care are shared between FPI and the employees. A substantial portion of life insurance premiums are
paid for by employees. Amounts paid by FPI for health benefits and life insurance approximated
$10,739 and $10,667 for the fiscal years ended September 30, 2010 and 2009, respectively.

OPM also provides health care and life insurance benefits for FPI’s retired employees. FPI must
recognize an expense related to its share of the cost of such post-retirement health benefits and life
insurance on a current basis (while its employees are still working), with an offsetting credit to other
income. Costs in this regard, which approximated $7,778 and $8,365 during the fiscal years ended
September 30, 2010 and 2009, respectively, were determined by OPM utilizing cost factors used to
estimate the cost of providing post-retirement benefits to current employees. However, because of
the offsetting credit, which is reflected as other income on the Statements of Operations and
Cumulative Results of Operations, the recording of these costs has no impact on reported net income
or cash flows.

Future post-retirement health care and life insurance benefit costs are not reflected as a liability on
FPI’s financial statements, as such costs are expected to be funded in future periods by OPM.




                                                  -37-
                                   Fiscal Years 2010 and 2009

                                  Notes to Financial Statements

                                 (DOLLARS IN THOUSANDS)


Note 9. Sales and Marketing, General and Administrative Expenses

Sales and marketing, general and administrative expenses consist of the following:


Sales and marketing, general and administrative expenses
Fiscal years ended September 30,                                    2010                   2009

Salaries, wages and benefits                                     $ 47,841               $ 47,893
Permanent change of station expense                                   700                  2,604
Purchases of minor equipment                                          389                  1,076
Contract services                                                   9,225                 10,282
Bad debt expense                                                      539                  (516)
Credit card service fees                                            1,093                  1,051
Travel                                                              1,723                  2,646
Personal computer expense                                             910                  3,508
Accident compensation                                               3,482                  3,521
Financial audit                                                     1,681                  2,046
Marketing                                                           1,791                  2,144
Depreciation                                                        2,005                  2,033
Gain on disposition of assets                                        (11)                   (52)
Loss on disposition of assets                                       4,079                  7,970
Telecommunication expense                                           3,159                  3,097
Other expense                                                     (3,599)                  (460)
Imputed pension costs (Note 8)                                      2,209                  1,043
Imputed post-retirement health
   care and life insurance cost (Note 8)                            7,778                  8,365
Imputed operating costs                                            27,448                 28,354

Sales and marketing, general
   and administrative expenses                                  $ 112,442             $ 126,605


Other expense is comprised primarily of inmate wages, maintenance agreements, and distributions to
factory operations. Contract services consist primarily of consulting and sales and marketing fees.
Salaries, wages and benefits are shown net of the imputed financing offsetting credit (Note 8).




                                              -38-
                                     Fiscal Years 2010 and 2009

                                    Notes to Financial Statements

                                   (DOLLARS IN THOUSANDS)


Note 10. Commitments and Contingencies

Legal Contingencies

FPI is party to various administrative proceedings, legal actions, and claims. FPI was party to no
legal proceedings that are expected to result in a probable loss; accordingly, the balance sheets
contain no liabilities for contingencies. Legal actions where management and the Chief Council
consider adverse decisions reasonably possible and the amounts are reasonably estimable, should not
result in judgments which would have a material adverse effect on the organizations financial
statements. Furthermore, there are cases where amounts have not been accrued or disclosed because
the amounts of the potential loss cannot be estimated or the likelihood of an unfavorable outcome is
considered remote.

Lease Commitments

FPI leases certain facilities, machinery, vehicles and office equipment under noncancelable capital
and operating lease agreements that expire over future periods. Many of these lease agreements
provide FPI with the option (after initial lease term) to either purchase the leased item at the then fair
value or to renew the lease for additional periods of time. As of September 30, 2010, future capital
lease payments due and future operating lease commitments total $114 and $96, respectively.

Product Warranty

FPI offers its customers a promise of an “Escape Proof Guarantee” on the products it manufactures.
FPI has analyzed the historical pattern of warranty returns and the adequacy of the warranty returns
and allowances. In this regard, FPI has established an estimate of future warranty returns related to
current period product revenue.


Changes in aggregate product warranty liability
Fiscal years ended September 30,                                         2010                      2009

Balance at the beginning of the period                                    $ 478                   $ 471
Accruals for warranties issued during the period                            342                     377
Settlements made (in cash or in kind) during the period                    (369)                   (370)

Balance at the end of the period                                           $451                   $ 478




                                                  -39-
                                  Fiscal Years 2010 and 2009
                                 Notes to Financial Statements
                                (DOLLARS IN THOUSANDS)

Congressional Limitation on Administrative Expenses

Congress has imposed an annual spending limit on certain administrative expenses relating to FPI’s
central office management. These costs include salaries for management personnel, travel expenses
and supplies. The following is a comparison of actual expenses to the limitation imposed:

Congressional limitation on administrative expenses
Fiscal years ended September 30,                                      2010                   2009

Congressional limitation on expenses                                $ 2,700               $ 2,328

Expenses incurred subject to Congressional limitation               $ 2,025               $ 2,323




                                              -40-
